                                  Closeout for MOO030015

On March 15, 2000, a Program Director1 informed us that a PI2 expressed a desire to
withdraw from the NSF award3 under his direction because of what he characterized as a
failure of the grantee institution to 1) comply with award's teaching load conditions and 2)
provide him with a non-hostile work environment.

On May 17, 2000, the Program Director informed us that the institution and the PI had
come to some sort of agreement and as such the PI decided to continue in his original role
on the NSF award. The Program Director received this information from an
Adrnini~trator.~

On June 26,2000, the PI directly verified with us the information provided to the Program
Director by the Administrator.

As an equitable state of affairs has been reached, additional inquiry is not warranted.

This case should be closed and no further action taken.

cc: Integrity, IG




1

    Footnotes Redacted
3




                                          Page 1 of 1     .                               MOO- 15
